CERTIFICATE OF SERVICE
NO. TBD
In Re Arno P. Kuigoua,
Petitioner.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the ARNO
P. KUIGOUA PETITION FOR EXTRAORDINARY WRIT, by mailing three (3) true and correct copies of the
same by Fedex 2-Day, prepaid for delivery to the following addresses.
Brad Parr
Deputy Attorney General
300 South Spring Street, Suite 1702
Los Angeles, CA 90013
(213) 269-6479
brad.parr@doj.ca.gov
Counsel for California Correctional
Health Care Services

Laurence D. Rubin
California Court of Appeals, 2nd Dist
300 S. Spring Street
2nd Floor, North Tower
Los Angeles, CA 90013
(213) 830-7000
Presiding Judge for the
Calif. 2nd Dist. Court of Appeal

Lucas DeDeus

March 23, 2021
SCP Tracking: Allen-Blaine-3680 Wilshire Blvd-Cover White

